         DEPARTMENT OF HEALTH &. HUMAN SERVICES                                                        Office of Inspector General


                                                                                                       Washington, D.C. 20201

                                                        ~,..
                                                      F-tlJ -
                                                                 , -. 2009
                                                                 .J




TO:                Charlene Frizzera
                   Acting Administrator
                   Centers for Medicare & Medicaid Services


FROM:             Daniel R. Levinson
                  Inspector General


SUBJECT:          Memorandum Report: "Medicaid and Medicare Home Health Payments for
                  Skilled Nursing and Home Health Aide Services," OEI-07-06-00641


This memorandum report determined, in five States, the extent to which both Medicaid and
Medicare may have made payments to home health providers for the same skilled nursing and
home health aide services for the same beneficiary during 2005. A companion study, "Duplicate
Medicaid and Medicare Home Health Payments: Medical Supplies and Therapeutic Services"
(OEI-07-06-00640), examined Medicaid and Medicare payments for medical supplies and
therapeutic services.

For 2005, we identified Medicaid payments amounting to $3.3 million for 68,765 service claims
that may have been coverable by Medicare. We matched Medicaid home health claims with
Medicare home health Prospective Payment System (PPS) episodes and reviewed beneficiaries'
case records for a sample of claims to determine whether the Medicare payments were
vulnerable to also being paid by Medicaid based on criteria established by State Medicaid
programs and the "Medicare Benefit Policy Manual." Vulnerable Medicaid payments were
defined by two criteria: (I) a paid Medicaid service had to fall within a paid Medicare episode of
care and (2) a paid Medicaid service had to occur when fewer than 8 hours of services each day
and fewer than 28 hours of services each week were provided.

Payment policies created vulnerabilities that may have led to Medicaid and Medicare paying for
the same services. Medicaid paid nearly $2 million for skilled nursing and home health aide
services that were vulnerable to also being paid by Medicare in four of the five States reviewed.
Problems with coordination of care between providers and lack of clarity in the Medicare
coverage policy regarding billing for unskilled and skilled nursing services also contributed to
the vulnerabilities.




OEI-07-06-00641   Medicaid and Medicare Home Health Payments for Skilled Nursing and Home Health Aide Senices
Page 2 – Charlene Frizzera


BACKGROUND

Medicaid and Medicare Payment of Home Health Services
States must offer home health services to Medicaid beneficiaries who meet the States’ criteria for
nursing home coverage. 1 Home health services may include skilled nursing, home health aide
services, therapeutic services, and supplies. Medicaid programs in the five reviewed States paid
a total of $3.3 million for 68,765 claims for skilled nursing and home health aide services that
Medicare could also have covered for dually eligible beneficiaries. 2 Both Medicaid and
Medicare may pay home health providers for the same types of home health services; however,
both programs should not pay for the same skilled nursing and home health aide services for the
same beneficiary during the same visit. Each program has specific payment structures and
limitations on the services covered. 3 If services are not covered by Medicare, then Medicaid
may pay for those services, up to the limits established by the State Medicaid agency.

Medicare Coverage of Home Health Services
To be covered as part of the Medicare home health benefit, services must be reasonable,
medically necessary, and specified on a plan of care. 4 The beneficiary must be confined to the
home, under the care of a physician, and in need of intermittent skilled services. 5 In addition,
under the PPS coverage rules, skilled nursing and home health aide services must be part-time or
intermittent, meaning that skilled nursing and home health aide services may be furnished any
number of days each week as long as the combined hours do not exceed 8 hours each day and
28 hours each week. If beneficiaries require skilled nursing and home health aide services that
exceed 8 hours each day or 28 hours each week, another payor (e.g., Medicaid) may pay for the
services in excess of the Medicare limit. 6 Medicare rules also specify a few services that may
not be covered as skilled nursing, such as administering eye drops, or that may be covered as
skilled nursing services only in certain situations. 7

Some skilled nursing and home health aide services in our study may not have met all Medicare
coverage criteria. We could not determine which services met other Medicare coverage criteria
without performing a medical review. Therefore, we refer to Medicaid payments that (1) overlap
a Medicare payment and (2) occurred when fewer than 28 hours per week or fewer than 8 hours
per day of skilled nursing and home health aide services were provided as vulnerable payments.

1
  Social Security Act, § 1902(a)(10)(D), 42 CFR § 441.15.
2
  Dual eligibility occurs when an individual meets both Medicaid and Medicare eligibility requirements.
3
  Both Medicaid and Medicare cover only home health services ordered on a written plan of care for a specific
beneficiary. 42 CFR § 440.70(a)(2); Centers for Medicare & Medicaid Services (CMS), “Medicare Benefit Policy
Manual” [Internet Only Manual], Pub. No. 100-02, chapter 7, § 30.2.6. A plan of care is the medical treatment plan
that contains all diagnoses, services, medications, and treatments to be provided.
4
  CMS, “Medicare Benefit Policy Manual” [Internet Only Manual], Pub. No. 100-02, chapter 7, §§ 20.1.1 and
20.1.2.
5
  42 CFR § 409.42.
6
  Social Security Act, §§ 1861(m)(1) and 1861(m)(7)(B). Additionally, §1861(7)(B)(m) of the Social Security Act
further defines intermittent skilled nursing care as care either provided or needed on fewer than 7 days each week or
fewer than 8 hours each day for periods of 21 days or less.
7
  CMS, “Medicare Benefit Policy Manual” [Internet Only Manual], Pub. No. 100-02, chapter 7, § 40.1.2.4.


OEI-07-06-00641   Medicaid and Medicare Home Health Payments for Skilled Nursing and Home Health Aide Services
Page 3 – Charlene Frizzera


METHODOLOGY

State Selection
We examined 2005 Medicaid and Medicare claims for beneficiaries in five States: Florida,
Maryland, North Carolina, Ohio, and Texas. We selected States based on their total 2004 fee-
for-service home health expenditures, which ranged from $58,000 to $126 million.

Interviews With Agency Officials
We conducted structured interviews with State Medicaid agency staff in each of the selected
States. During these interviews, we collected information and documentation regarding the
home health services that each State provided through its Medicaid program. We contacted
CMS and regional home health intermediary officials to verify Medicare policy before data
collection and after data analysis to ensure our correct interpretation of existing policy.

Claims Data and Analysis
We matched final-action claims from the Medicaid Management Information Systems and the
Medicare National Claims History file for all beneficiaries who had skilled nursing and home
health aide service claims in 2005. This resulted in a universe of 68,765 overlapping skilled
nursing and home health aide service claims.

From the universe of claims, we selected a random sample of 100 billed claims in three of the
five States: Florida, North Carolina, and Ohio. Maryland’s population had only nine claims and
Texas’s population had only five claims; all were included in the sample. We removed
28 Medicaid claims that had dates of services during denied Medicare episodes. We received
complete case records for 96 percent (274/286) of the sampled claims. We reviewed case
records for each sampled claim to determine how many hours of skilled nursing and home health
aide services beneficiaries received by examining visit notes, plans of care, and agency staff
logs. We identified vulnerable Medicaid payments only in instances in which there were fewer
than 28 hours of services provided in each week and fewer than 8 hours of services provided on
the dates of each of the sampled claims. Because of the lack of a standard definition for a week,
all 7-day periods for each sampled claim had to meet these criteria for the sampled claim to be
identified as a vulnerable payment.

Limitations
Because this study did not include a medical review of case records, we did not attempt to
determine the medical necessity or medical appropriateness of any of the services provided or the
extent to which the services were payable under a particular State Medicaid program or by
Medicare. The methodology addressed solely whether Medicaid payments were made when
fewer than 8 hours of skilled nursing and home health aide services on the dates of each of the
sampled claims were provided and fewer than 28 hours of skilled nursing and home health aide
services per week were provided.




OEI-07-06-00641   Medicaid and Medicare Home Health Payments for Skilled Nursing and Home Health Aide Services
Page 4 – Charlene Frizzera


Standards
This inspection was conducted in accordance with the “Quality Standards for Inspections” issued
by the President’s Council on Integrity and Efficiency and the Executive Council on Integrity
and Efficiency.

RESULT

Payment Policies Create Vulnerabilities That May Lead to Medicaid and Medicare Paying
for the Same Services
The complexity of payment policies for services provided to beneficiaries may lead to Medicaid
and Medicare paying for the same home health services. Payment systems should function
efficiently with minimal intervention, but the claims information available to the Medicaid
payors does not enable them to ensure the appropriateness of payments for services provided to
dually eligible beneficiaries. States’ inability to determine Medicare coverage of services, absent
a medical review of the plan of care and corresponding home health visit records, further
complicates efforts to ensure that Medicaid payments are appropriate.

Medicaid may have paid nearly $2 million for services paid by Medicare. Medicaid paid nearly
$2 million for skilled nursing and home health aide services that were vulnerable to also being
paid for by Medicare in four of the five States reviewed. (See Table 1.) These payments
occurred when fewer than 28 hours of service a week were provided, which Medicare generally
covers. Twenty-six percent of the vulnerable claims, or 17,538 claims, were for skilled nursing
services amounting to $866,036 in 2005. The remaining 61 percent of vulnerable claims, or
41,939 claims, were for home health aide services amounting to $1,105,350.

    Table 1: Vulnerable Medicaid Claims and Payments for Reviewed Services in 2005
                              Paid Medicaid Claims              Projected       Percentage of            Projected
      State                        Within Medicare             Vulnerable          Vulnerable           Vulnerable
                                           Episode                Claims              Claims             Payments
      Florida                                 48,821                47,760                 98           $1,276,938
      Maryland                                      9                     9               100               $1,523
      North Carolina                           1,258                     833               66              $85,094
      Ohio                                    18,672                10,875                 58             $607,831
      Texas                                         5                      0                 0                    $0
        Total                                 68,765                59,477                 87           $1,971,386
    Source: Office of Inspector General analysis of claims data, 2008.


As a result of our request for case records, three home health agencies (HHA) that submitted
claims selected in our sample returned payments for claims to their State Medicaid programs.
These HHAs determined themselves that the Medicaid payments were inappropriate because
Medicare had already paid for the services. State-specific point estimates and confidence
intervals are found in the Appendix.

High rates of vulnerable payments occurred regardless of the number of HHAs that provided
care. In 86 percent of reviewed case records involving two HHAs, the payments to the HHAs


OEI-07-06-00641    Medicaid and Medicare Home Health Payments for Skilled Nursing and Home Health Aide Services
Page 5 – Charlene Frizzera


that billed Medicaid were vulnerable. When multiple HHAs serve the same beneficiary during a
Medicare PPS episode, they are required to share the PPS payment accordingly. However, our
case record review demonstrated that this coordination often did not occur. For example, one
HHA provided home health aide services and received the Medicare PPS payment while another
HHA provided skilled nursing services and received Medicaid fee-for-service payments.
Medicare PPS covers both home health aide and skilled nursing services; if the home health aide
services met all Medicare coverage criteria, the Medicaid payment for these same services would
have been duplicative. In 84 of the 96 reviewed case records that included only one HHA, the
Medicaid payments were vulnerable. This may indicate lack of coordination of multiple services
within a single HHA or misinterpretation of Medicare coverage policy. HHAs in these cases
should be aware that they are receiving both Medicaid and Medicare payments for the exact
same services.

Medicare coverage policy regarding skilled nursing services lacked clarity. In 27 percent of
vulnerable Medicaid payments for skilled nursing services, at least one skilled service and one
unskilled service were provided during the same visit. Some vulnerable payments may have
resulted from misinterpretation of which skilled nursing services are covered by the PPS. CMS
officials stated that if any PPS-covered skilled nursing service is provided during the course of a
visit, then the entire visit is included in the PPS payment, including any unskilled services
provided. Medicaid should not be billed for services covered by the PPS payments. For
example, the CMS “Medicare Benefit Policy Manual,” chapter 7, section 40.1.2.4(A)(2),
explains that prefilling insulin syringes does not normally require the skills of a nurse. However,
if this unskilled service was performed during the course of a nursing visit in which at least one
skilled service was provided (e.g., wound care, skilled observation), the entire visit is included in
the PPS payment. In this case, it would be inappropriate to seek separate payment from
Medicaid for prefilling the insulin syringes. Other unskilled services identified that were
provided by nurses during the course of a skilled visit included prefilling medication planners
and administering eye drops. These services were billed to Medicaid despite not reaching the
Medicare 8-hour threshold for skilled nursing services.

CONCLUSION

We found that the complexity of payment policies for services provided to dually eligible
beneficiaries may lead to Medicaid and Medicare paying for the same home health services.
Medicaid paid nearly $2 million for skilled nursing and home health aide services that were
vulnerable to also being paid by Medicare in four of the five States reviewed. Problems with
coordination of care between providers and lack of clarity in the Medicare coverage policy
regarding billing for unskilled and skilled nursing services also contributed to the vulnerabilities.

The appropriateness of Medicaid payment for skilled nursing and home health aide services
depends on several factors, including whether the services were covered by Medicare PPS and
the total hours of services that a beneficiary received in certain time periods. Claims data do not
contain sufficient information to determine the appropriateness of Medicare coverage, limiting
States’ abilities to prevent Medicaid payments for services covered by Medicare.


OEI-07-06-00641   Medicaid and Medicare Home Health Payments for Skilled Nursing and Home Health Aide Services
Page 6 – Charlene Frizzera


CMS could consider methods to better integrate Medicaid and Medicare claims processing to
prevent duplicate payments without relying on medical review and provide greater clarity in the
CMS “Medicare Benefit Policy Manual” to explain that unskilled services provided during a
skilled nursing visit paid under the PPS are included in the PPS payment.

This report is being issued directly in final form because it contains no recommendations. If you
have comments or questions about this report, please provide them within 60 days. Please refer
to report number OEI-07-06-00641 in all correspondence.




OEI-07-06-00641   Medicaid and Medicare Home Health Payments for Skilled Nursing and Home Health Aide Services
   Page 7 – Charlene Frizzera


                                                              APPENDIX

   Table 2: Vulnerable Skilled Nursing and Home Health Aide Service Claims and Payments (Point
   Estimates and Confidence Intervals)

                                                                                                                 95-Percent Confidence
State                                               Description     Sample Size        Point Estimate
                                                                                                                               Interval

                               Percentage of vulnerable claims                92                97.8%                     92.4%–99.7%*

                                   Number of vulnerable claims                92                47,760                    45,096–48,694

                                Vulnerable Medicaid payments                  92            $1,276,938            $1,128,221–$1,425,656

                  Percentage of vulnerable payments involving
                                                                              79                97.4%                     91.2%–99.7%*
                                            multiple providers

                  Percentage of vulnerable payments involving
                                                                              33                21.2%                        6.9%–35.5%
                        unskilled services during a skilled visit
Florida
                Percentage of vulnerable skilled nursing claims               92                12.0%                        5.2%–18.7%

                   Number of vulnerable skilled nursing claims                92                 5,837                       2,543–9,132

                           Vulnerable skilled nursing payments                92             $172,346                  $60,757–$283,934
                     Percentage of vulnerable home health aide
                                                                              92                85.8%                      78.6%–93.1%
                                                        claims
                Number of vulnerable home health aide claims                  92                41,922                    38,385–45,459

                        Vulnerable home health aide payments                  92            $1,104,593             $947,188–$1,261,998

                Percentage of vulnerable skilled nursing claims                9               100.0%                      Not Applicable
Maryland
                           Vulnerable skilled nursing payments                 9                $1,523                     Not Applicable

                               Percentage of vulnerable claims                77                66.2%                      55.8%–76.7%

                                   Number of vulnerable claims                77                   833                          702–964

                                Vulnerable Medicaid payments                  77               $85,094                 $68,573–$101,614

                  Percentage of vulnerable payments involving
                                                                              31                19.4%                        5.5%–33.2%
                                            multiple providers

                  Percentage of vulnerable payments involving
                                                                              48                64.6%                      51.0%–78.2%
                        unskilled services during a skilled visit
North
Carolina        Percentage of vulnerable skilled nursing claims               77                64.9%                      54.4%–75.5%

                   Number of vulnerable skilled nursing claims                77                   817                          685–949

                           Vulnerable skilled nursing payments                77               $84,337                 $67,736–$100,937
                     Percentage of vulnerable home health aide
                                                                              77                  1.3%                         0%–7.0%*
                                                        claims
                Number of vulnerable home health aide claims             Estimate cannot be made because of small sample size.

                        Vulnerable home health aide payments             Estimate cannot be made because of small sample size.

Source: Office of Inspector General analysis of claims data, 2008.
* Confidence interval was calculated with an exact method based on the binomial distribution because of poor coverage properties of the
standard method when almost no or all sample elements possess the characteristic of interest.




   OEI-07-06-00641     Medicaid and Medicare Home Health Payments for Skilled Nursing and Home Health Aide Services
Page 8 – Charlene Frizzera


Table 2 Continued: Vulnerable Skilled Nursing and Home Health Aide Service Claims and
Payments (Point Estimates and Confidence Intervals)

                                                                                                                95-Percent Confidence
State                                                 Description     Sample Size      Point Estimate
                                                                                                                              Interval

                  Percentage of vulnerable skilled nursing claims             91                58.2%                      47.9%–68.6%

                     Number of vulnerable skilled nursing claims              91                10,875                     8,949–12,801

                             Vulnerable skilled nursing payments              91             $607,831                $488,642–$727,020
Ohio
                    Percentage of vulnerable payments involving
                                                                              68                52.9%                      40.8%–65.1%
                                              multiple providers

                    Percentage of vulnerable payments involving
                                                                              49                32.7%                      19.2%–46.1%
                          unskilled services during a skilled visit

                                 Percentage of vulnerable claims               5                  0.0%                    Not Applicable
Texas
                                  Vulnerable Medicaid payments                 5                    $0                    Not Applicable

                                 Percentage of vulnerable claims             274                86.5%                      82.6%–89.6%

                                  Vulnerable Medicaid payments               274            $1,971,386           $1,801,015–$2,141,757

                                     Number of vulnerable claims             274                59,477                    57,067–61,887

                    Percentage of vulnerable payments involving
                                                                             178                85.6%                      81.5%–89.8%
                                              multiple providers

                    Percentage of vulnerable payments involving
                                                                             130                26.6%                      16.6%–36.5%
                          unskilled services during a skilled visit
Overall
Estimates         Percentage of vulnerable skilled nursing claims            274                25.5%                      20.4%–31.4%

                     Number of vulnerable skilled nursing claims             274                17,538                    13,754–21,322

                             Vulnerable skilled nursing payments             274             $866,036              $708,080–$1,023,992

                      Percentage of vulnerable home health aide
                                                                             274                61.0%                      55.8%–66.0%
                                                         claims

                  Number of vulnerable home health aide claims               274                41,939                    38,432–45,446

                          Vulnerable home health aide payments               274            $1,105,350             $962,975–$1,247,725

Source: Office of Inspector General analysis of claims data, 2008.

* Confidence interval was calculated with an exact method based on the binomial distribution because of poor coverage properties of the
standard method when almost all sample elements possess the characteristic of interest.




OEI-07-06-00641     Medicaid and Medicare Home Health Payments for Skilled Nursing and Home Health Aide Services
